   AUDIT REPORT

U.S. Fish and Wildlife Service
 Federal Assistance Grants
Administered by the State of
  Florida Fish and Wildlife
 Conservation Commission
 from July 1, 2000, through
         June 30, 2002




   Report No. R-GR-FWS-0020-2003

                     February 2004
                U
                Unniitteedd SSttaatteess D          meenntt ooff tthhee IInntteerriioorr
                                         Deeppaarrttm
                           OFFICE OF INSPECTOR GENERAL
                                         External Audits
                               12030 Sunrise Valley Drive, Suite 230
                                       Reston, VA 20191

                                                                                     February 25, 2004

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Joe Ansnick
           Director of External Audits

Subject:   Final Audit Report on the State of Florida Fish and Wildlife Conservation
           Commission from July 1, 2000, through June 30, 2002
           (Report No. R-GR-FWS-0020-2003)


       This report presents the results of our audit of costs incurred by the State of Florida Fish
and Wildlife Conservation Commission (Commission) under its hunting and fishing programs
and costs claimed under Federal Assistance grants from the U.S. Fish and Wildlife Service
(FWS) for the period July 1, 2000, through June 30, 2002 (see Appendix 1).

       Our findings include questioned costs of $895,511. In addition, we found that the
Commission did not report program income of $620,212, did not account for and report as
program income the value of work provided by lessees in lieu of rental payments, and misused
land acquired with Federal Assistance funds. We also noted that improvements are needed in the
maintenance of grant accounting records, project level accounting, and charging of employee
overtime costs.

       The Commission and FWS Region 4 responded to a draft of this report on January 8,
2004. The Region concurred with 8 of the report’s 14 recommendations. We modified the
findings and recommendations as necessary to clarify the issues and to incorporate any
additional information provided. We have added the responses after our recommendations and
summarized the status of the recommendations in Appendix 3.

        In accordance with the Departmental Manual (360 DM 5.3), please provide us with your
written response by May 26, 2004, to the recommendations included in this report. Your
response should include information on actions taken or planned, including target dates and titles
of officials responsible for implementation. If you have any questions regarding this report,
please contact me or Mr. Richard O’Brien, Audit Team Leader, at (703) 487-5345.

cc:     Regional Director, Region 4, U.S. Fish and Wildlife Service
                                  IIN
                                    NTTR
                                       ROOD
                                          DUUC
                                             CTTIIO
                                                  ONN

Background and Scope
The Pittman-Robertson Wildlife Restoration Act, as amended (16 U.S.C. 669), and the Dingell-
Johnson Sport Fish Restoration Act, as amended (16 U.S.C. 777) (the Acts), authorize FWS to
provide Federal Assistance grants to states to enhance their sport fish and wildlife programs.
The Acts provide for FWS to reimburse the states up to 75 percent of the eligible costs incurred
under the grants. The Acts specify that state hunting and fishing license revenues cannot be used
for any purpose other than the administration of the state’s fish and game agencies.

We performed an audit of hunting and fishing license revenue and Federal Assistance grants to
the State of Florida at the request of FWS. The objective of our audit was to evaluate: (1) the
adequacy of the Commission’s accounting system and related internal controls; (2) the accuracy
and eligibility of the direct and indirect costs claimed under the Federal Assistance grant
agreements with FWS; (3) the adequacy and reliability of the Commission’s hunting and fishing
license fee collection, certification, and disbursement process; (4) the adequacy of the
Commission’s asset management system and related internal controls with regard to purchasing,
maintenance, control, and disposal; and (5) the adequacy of the Commission’s compliance with
the Acts’ assent legislation requirements. The audit also included a review of other issues
considered sensitive and/or significant by FWS. The audit included claims totaling
approximately $41.6 million on FWS grants that were open during the State’s fiscal years ended
June 30, 2001, and 2002.

Our audit was performed in accordance with the government auditing standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Commission to the grants and interviews with employees to ensure that all personnel costs
charged to the grants were allowable. We reviewed the audit work performed by other auditors,
including the working papers and summaries for the Commission's (1) certification of hunting
and fishing license holders for fiscal years 2001 and 2002, and (2) use of fishing and hunting
license revenues for fiscal years 2001 and 2002 to determine whether the revenues had been used
for program purposes. We did not evaluate the economy, efficiency, and effectiveness of the
Commission’s operations.

Our audit was performed at the Florida Fish and Wildlife Conservation Commission’s
headquarters and business office in Tallahassee and the Region 4 South Office in West Palm
Beach, Florida. We also visited the Florida Marine Research Institute, the Joe Budd Aquatic
Education Center, the Region 5 Northeast Hunter Education and Training Center and Shooting
Range, the Fred C. Babcock/Cecil M. Webb Shooting Range, the Tenoroc Fish Management
Area, and several wildlife management areas and boat ramps (see Appendix 2).




                                                2
Prior Audit Coverage
On January 28, 1998, we issued audit report No. 98-E-232, “Audit of U.S. Fish and Wildlife
Service Federal Aid Grants to the State of Florida, Game and Fresh Water Fish Commission for
Fiscal Years 1995 and 1996.” Other auditors conducted annual single audits of the State’s
financial statements and Federal financial assistance for fiscal years 2001 and 2002. In addition,
the Commission’s internal auditor issued a follow-up report on employee time charges during the
period covered by our review.

We reviewed these reports and followed up on all findings to determine whether they had been
resolved prior to our review. One finding, relating to improper payroll allocation, is included in
our report because it had not been satisfactorily resolved and errors affecting the allocation of
employee overtime and compensatory time existed during the period covered by our audit.




                                                 3
                               RESULTS OF AUDIT
Except for the issues identified below, we concluded that the Commission’s accounting system
and related internal controls adequately and accurately accounted for grant and license fee
receipts and disbursements; direct and indirect costs were adequately recorded and supported; the
asset management system accurately identified and tracked personal and real property with
regard to acquisition, control, and disposal; and the State also had adequate legislation that
assented to the provisions of the Acts and prohibited the use of license fees for anything other
than the administration of the Fish and Wildlife Conservation Commission.

We questioned grant costs totaling $895,511 ($671,633 Federal share) for:

       •   Ineligible campground construction costs of $504,582 ($378,436 Federal share)
       •   Costs of $179,574 ($134,680 Federal share) charged to the wrong project
       •   Costs of $156,981 ($117,736 Federal share) incurred outside of the grant’s period of
           performance
       •   Ineligible costs of $32,789 ($24,592 Federal share)
       •   Unallowable awards to volunteers totaling $21,585 ($16,189 Federal share)

In addition, we found that:

       •   The Commission did not report program income of $620,212
       •   The Commission allowed recreational use at the Babcock/Webb Wildlife
           Management Area, which resulted in a misuse of land acquired under the Federal
           Assistance Program
       •   Improvements were needed in the maintenance of grant accounting records
       •   The Commission did not accumulate cost data at the project level as required
       •   Payroll allocations of employee overtime costs continue to be a problem




A. Campground Construction
The Commission claimed $504,582, under Grant W-35-51, to rehabilitate a campground and to
construct picnic tables and shelters that were not allowable wildlife-associated recreation. OMB
Circular A-87, Attachment A, Section C.1.d states that to be allowable under Federal awards,
costs must conform to limitations or exclusions specified in the Circular, Federal laws, and terms
of the Federal award. Section 4(d)(4)(B) of the Wildlife Restoration Act provides for state
expenditures on wildlife-associated recreation and Section 2(5) includes wildlife-associated
recreation activities such as hunting and fishing, construction or restoration of wildlife viewing
areas, observation towers, blinds, platforms, land and water trails, water access, trailheads, and
access for such activities. Because campgrounds, picnic tables, and shelters were not included,
we questioned $504,582 claimed for the construction of these items.



                                                4
       Recommendation

       We recommend that FWS resolve the $504,582 of questioned costs.

       Commission Response

       Commission officials agreed with the finding and determined that the management area
       should not have been included in Grant W-35-51. They notified FWS that they would
       amend the appropriate Financial Status Reports, SF-269s, to remove all costs associated
       with the management area, including the campground construction.

       FWS Response

       FWS agreed with the Commission’s actions.

       Office of Inspector General Comments

       We consider the response sufficient to consider this finding resolved. FWS should
       identify a target date and an official responsible for implementation of the
       recommendation.

B. Costs Charged to the Wrong Project
The Commission charged $359,147 to Grant W-35-51 (project 7275) for paving a road between
the Apalachicola Wildlife Environment Area and the Tates Hell Wildlife Management Area.
Although the road divided the two Areas, the costs of paving were charged to project 7275,
which was for the management of the Apalachicola Wildlife Environment Area.

Because Grant W-35-51 required costs to be accounted for by project and the road lies half on
Apalachicola and half on Tates Hell, the costs should have been borne equally by each Area.
Accordingly, the costs of paving the portion of the road located in the Tates Hell was not a
proper charge to project 7275 and should have been claimed under project 7265 of the same
grant, which was for the management of the Tates Hell Wildlife Management Area. OMB
Circular A-87, Attachment A, Section C.1.d states that, to be allowable under Federal awards,
costs must conform to limitations or exclusions specified in the Circular, Federal laws, and terms
of the Federal award. We concluded that one-half of the paving costs claimed did not conform to
the grant requirements that costs be accounted for by project. Therefore, $179,574 (one-half of
$359,147) in paving costs was not allocated to the correct project. Accordingly, we questioned
$179,574 of costs claimed under Grant W-35-51 because they were not allocable to project 7275
and thus, were unallowable.

       Recommendation

       We recommend that FWS resolve the $179,574 of questioned costs.




                                                5
       Commission Response

       Commission officials agreed that the costs should be split between the two Areas.
       However, since the deficiency was a coding error, the Commission sees no need to
       reallocate the costs within the same grant (W-35-51).

       FWS Response

       FWS agreed with the Commission’s actions.

       Office of Inspector General Comments

       We consider the responses inadequate to resolve the finding. Grant W-35-51 required
       project level accounting. Therefore, FWS should reconsider its response and either
       require the Commission to correct the project coding or amend the Grant to eliminate this
       requirement.

C. Out-of-Period Costs
We questioned $156,981 in out-of-period costs because the Commission maintained its
accounting records on a modified accrual basis but prepared the annual Financial Status Reports,
SF-269s, on a cash basis, and reported expenditures when paid, not when services or
merchandise was received.

Federal regulations for the administration of grants stipulate that, where a funding period is
specified, a grantee may charge to the award only costs resulting from the obligations of the
funding period [43 CFR § 12.63(a)]. Further, 43 CFR § 12.90 requires that the grantee submit
all financial, performance, other reports required by the grant, and the final SF-269 supporting
the final payment within 90 days after the expiration or termination of the grant. Each grant had
a specified period of performance, and there was no evidence that FWS had extended the periods
specified. Accordingly, obligations should have been liquidated within 90 days of the end of the
grant period. For example, if costs incurred for a grant were paid after the end of the grant
period, those costs cannot be reported and claimed under the subsequent grant. However, this
occurred on Grants W-5-10 and W-35-51, where we questioned $156,981 of costs that were
incurred prior to the period of performance for the grant under which they were claimed ($4,536
for Grant W-5-10 and $152,445 for Grant W-35-51).

       Recommendation

       We recommend that FWS resolve the $156,981 of questioned costs.

       Commission Response

       Commission officials stated that the out-of-period costs were allowable because the SF-
       269 was prepared on a cash basis and that FWS approved the practice. However, the




                                                6
       Commission could not confirm FWS approval and plans to request FWS acceptance to
       continue reporting grant expenses on a cash basis.

       FWS Response

       FWS concurred with the finding, disagreed with the Commission’s response and stated
       that Federal Assistance grants have a specific funding period and that carryover of funds
       is not allowed. Consequently, the Commission must report expenditures applicable to the
       grant under which they are incurred, and not based on when payments are made.

       Office of Inspector General Comments

       We consider the response sufficient to consider this finding resolved. FWS should
       identify a target date and an official responsible for implementation of the
       recommendation.

D. Ineligible Costs
An unpaid invoice for $32,789 was included in the claimed costs for Grant W-35-51. Because
the costs were never incurred, it was improper for them to be claimed. We found that the
adjustment to cancel the unpaid invoice was not processed because it did not contain the correct
project number. Accordingly, we questioned the $32,789 claimed under Grant W-35-51.

       Recommendation

       We recommend that FWS resolve the $32,789 of questioned costs.

       Commission Response

       Commission officials agreed with the finding and determined that the costs should not
       have been included in Grant W-35-51. They notified FWS that they would amend the
       appropriate SF-269 to reduce the costs claimed by $32,789.

       FWS Response

       FWS agreed with the Commission’s actions.

       Office of Inspector General Comments

       We consider the response sufficient to consider this finding resolved. FWS should
       identify a target date and an official responsible for implementation of the
       recommendation.




                                                7
E. Awards to Volunteers
The Commission awarded firearms, direction finders, and other items each exceeding $100 in
cost, and five-year hunting or fishing and one-year combination game/fishing licenses to Hunter
Education program volunteers. The costs of the awards totaled $21,585 in fiscal year 2002. The
Commission claimed the costs of the licenses under Grant W-5-10 and included the hours
worked by the award recipients in the count of unpaid volunteer hours. Furthermore, the
Commission included the hunting, fishing, and combination licenses in its certification of
licenses sold in license year 2002.

A Florida statute prohibited high-value awards (over $100 in value). OMB Circular A-87,
Attachment A, section C.1.c states, that to be allowable under Federal awards, costs must be
authorized or not prohibited under State law or regulations. Furthermore, the cost of the
volunteer hours were, in effect, claimed twice because (1) the unpaid volunteers received
compensation in the form of awards, and (2) the hours necessary to receive award compensation
were claimed as in-kind match for Federal Assistance reimbursement. If the Commission is
allowed to claim the awards, then the volunteer hours would not be allowable as an in-kind
match for the Hunter Education grant under the rationale that costs cannot be claimed twice. In
addition, by counting the awarded hunting and fishing licenses in its certification of licenses
sold, the Commission overstated its count for 2002, resulting in the possibility of a larger
apportionment of Restoration Act funding in 2003 than it was entitled to. Accordingly, we
questioned the $21,585 in improper awards.

       Recommendation

       We recommend that FWS resolve the $21,585 of questioned costs.

       Commission Response

       Commission officials agreed with the finding and stated that Volunteer awards are now in
       compliance with State law, and that no licenses of any type will be purchased with
       agency funds. The Commission plans to amend the final SF-269 for Grant W-5-10 to
       exclude the questioned costs.

        FWS Response

       FWS agreed with the Commission’s actions.

       Office of Inspector General Comments

       We believe the Commission’s proposed corrective action is appropriate. We consider the
       response sufficient to consider this finding resolved. FWS should identify a target date
       and an official responsible for implementation of the recommendation.




                                               8
F. Program Income
During our site visits and review of the Commission’s revenue accounts, we identified $620,212
of unreported program income from day use fees at various fish and wildlife management areas
($207,244); Everglades Youth Camp revenues ($392,968); and a land lease ($20,000) at the
Corbett Wildlife Management Area.

According to 43 CFR § 12.65, program income is gross income received by a grantee directly
generated by a grant supported activity. Revenue produced from wildlife management areas
should be considered program income and used to fund the costs of managing the areas
whenever grants for the operation and maintenance of those wildlife management areas have
been awarded. 43 CFR § 12.65(g) provides that the granting agency decides whether the
program income should be used to reduce the costs of the program or be used to increase the size
of the program. In addition, 43 CFR § 12.65(c) states that if authorized by Federal regulations or
the grant agreement, costs incident to the generation of program income may be deducted from
gross income to determine program income. A schedule of unreported program income
generated for the period covered by our review follows:


                                              Grant Number
                      Program            W-35-50       W-35-51        Total
                      Day Use Fees      $103,479       $103,765     $207,244
                      Youth Camp          193,283       199,685       392,968
                      Land Lease           10,000        10,000        20,000
                             Totals     $306,762       $313,450     $620,212



The Commission did not report revenue from day use fees because the Commission requested
and received a reporting waiver from FWS Region 4, which indicated that revenues from day use
fees were not considered program income because they were considered to be permits.
Commission officials told us that Youth Camp expenses normally exceed income and they were
not aware of the land lease. As a result, revenue from the youth camp and the lease was not
reported as program income.

According to 50 CFR § 80.4(a)(1), a permit is a form of charge imposed by a State to hunt or
fish. Since day use fees were general entrance fees and did not entitle visitors to the wildlife
management areas to hunt or fish, we believe that FWS Region 4 should not have granted a
waiver from the program income reporting requirement. A formal hunting or fishing permit was
not issued, and cash deposited from the fees was not reported in the annual license certification.
The program income requirement serves to assure that the income earned from a grant supported
activity is used to reduce program outlays or to enhance grant program objectives. Although the
day use fees were deposited into the State Game Trust Fund, that fund was used for law
enforcement and fish activities as well as wildlife activities, so there is no assurance that the day
use fees were used to enhance the specific objectives of Wildlife Restoration Grant W-35-51.


                                                  9
Because this program income was not reported, the magnitude of the fees and the lease revenue
was not known to FWS, and, as a result, FWS did not have the opportunity to decide whether the
program income should be used to reduce program outlays or to enhance grant program
objectives.

With regard to youth camp revenues, the intent of the regulation is that gross income, not net
income, be reported unless costs incident to the generation of the revenue are netted out, and then
only if Federal regulations or the grant agreement provided for the offset. No Federal regulations
existed that allowed netting of the incidental costs, and the Grant did not provide for it. Despite
the Commission’s assertion that youth camp costs normally exceeded youth camp revenue, we
found that the Commission did not offset youth camp costs with youth camp revenues. The
provision to offset youth camp costs with youth camp revenue would have had to have been
included in the grant proposal and approved by the FWS in the grant agreement., the youth camp
costs would have had to have been incidental to the generation of the youth camp revenue, and
the costs would have had to have been greater than the revenue in both years in order for the
Commission to avoid reporting this program income.

       Recommendations

       We recommend that FWS:

       1. Resolve the $620,212 of unreported program income.

       2. Notify the Commission that, in the future, it should identify estimated day use fees,
          youth camp revenue, and land lease income in its applications for Federal Assistance
          and report actual fees, revenues and income on the applicable SF-269s.

       Commission Response

       Except for the youth camp revenue, Commission officials agreed with the finding and
       notified FWS that they would adjust the appropriate SF-269s for day use fees and land
       lease revenue.

       As to the youth camp revenue, Commission officials cited 43 CFR § 12.65 (b) which
       defines program income as gross income received by the grantee or sub-grantee directly
       generated by a grant-supported activity, or earned as a result of the grant during the grant
       period. The Commission maintains that since there were no Wildlife Restoration funds
       used for the operation of the youth camp, there was no program income generated.

       FWS Response

       FWS Region 4 agreed with the Commission’s actions.




                                                10
       Office of Inspector General Comments

       We could not confirm that the camp was not maintained with Federal Assistance funds.
       However, the management area’s current five-year management plan does not exclude
       the youth camp from the Federal Assistance grant for the operation and management of
       its wildlife management areas. Therefore, we concluded that the youth camp revenues
       should be reported as program income of Grants W-35-50 and W-35-51. Accordingly,
       we consider the finding unresolved and FWS should address this finding in its corrective
       action plan.

G. Misuse of Land
The Commission allows mixed public use of its wildlife management areas (WMAs) on a year-
round basis. At eight of the nine WMAs we visited, most public use affected a very small
geographical area and may not have impacted wildlife restoration and management. However,
on one wildlife management area, the Commission allowed approximately one-third of the
wildlife area to be used for public recreational activities.

FWS Director’s Order Number 152, issued July 1, 2003, provides guidance as to the recreational
activities and related facilities allowed on Federal Assistance lands. The guidance applies to
land acquired with Federal Assistance funds, regardless of when the land was acquired, and is
based on the Acts and related Code of Federal Regulations. Section 5a of the Order states that
“The State fish and wildlife agency is prohibited from allowing recreational activities and related
facilities that would interfere with the purpose for which the land was acquired or developed, or
is managed.” Section 5b of the Order cites hunting, fishing, wildlife photography and viewing
platforms as examples of allowable activities; bicycling, swimming, kennels, stables, horseback
riding, and weddings are examples of activities that may be allowed if it is shown that they will
not interfere with the purpose for which the land was acquired or developed, or is managed.
These examples agree with the allowable activities contained in Section 4 of the Wildlife
Restoration Act which was in effect during our period of review.

The Commission acquired the Babcock/Webb WMA with Pittman Robertson Wildlife
Restoration Act funds between 1941 and 1957. However, neither the Commission nor FWS
Region 4 was able to provide the acquisition grants so we could determine the purpose for which
the WMA was acquired. During our site visit to the WMA located near Fort Myers, Florida, we
observed that the Commission allowed the use of about 23,000 acres (35 percent) of the 65,770
total acres for recreational or mixed use purposes. At all of the other WMAs we visited,
recreational or mixed use was less than one percent of the total acreage. We believe that the use
of such a large amount of WMA acreage for recreation/mixed use purposes may negatively
impact the wildlife habitat.

The Commission did not agree that a misuse occurred because the Commission disclosed the
intended use in its W-35-50 and W-35-51 grant agreement proposals which FWS approved when
it completed the Intra Service Section 7 Biological Evaluation Form (Section 7 Review) as part
of the annual grant approval process.




                                                11
Based on our review of Section 7 Review documents provided by FWS, we concluded that FWS
approved the activities on an individual basis over a long period of time. However, we believe
that the recreational and mixed use activities cited are incompatible with the purpose for which
this land was originally acquired.

       Recommendations

       We recommend that FWS determine:

       1. The purpose for which the Babcock/Webb Wildlife Management Area was acquired.

       2. Whether the recreational activities conducted at the Babcock/Webb WMA have had a
          negative effect on the wildlife habitat or the other purpose(s) for which the land was
          acquired.

       Commission Response

       The Commission did not concur with the finding and responded that the land in question
       at Babcock/Webb has always been managed consistent with the purpose of the
       acquisition. The Commission indicated it would defer to the Region 4 Federal Aid staff
       to further address this finding.

       FWS Response

       FWS Region 4 concurred with the Commission’s response and concluded that the
       Region’s interpretation of Director’s Order Number 152 prevails. It added that the
       Babcock/Webb WMA consists of approximately 65,770 acres of which approximately
       43,000 acres are closed to the public except for hunters during regular hunting seasons.
       The remaining 23,000 acres are used for a variety of recreational uses except during the
       hunting seasons, when it is open only to hunters. Since the WMA is located near a major
       metropolitan area (Fort Myers) and there is heavy usage of the area, the Commission has
       implemented these rules in an effort to control the allowable recreational use of the land.

       The Region stated that the auditors concluded that since 23,000 acres was available for
       recreational use it constituted a diversion of use. The auditor’s conclusion was based on
       their interpretation of Section 5 of Director's Order 152, “Allowable Recreational
       Activities and Related Facilities on Federal Assistance Lands.” However, it should be
       recognized that the individual uses sited in the draft report are on a very small part of the
       total 23,000 acres. In fact, most of the uses are located near the entrance of the WMA
       and Webb Lake which are located in the Southeast corner of the WMA. It was the
       Region’s opinion, after reviewing the Application for Federal Assistance and Annual
       Reports submitted by the Commission, that these activities do not interfere with the
       purpose for which the land was acquired, developed, or managed because hunters have
       not been impaired and wildlife management has not been adversely affected.




                                                12
       The Region cited Section 7 of the Director's order which states that the state fish and
       wildlife agency has responsibility for the accounting and control of all assets, and has
       first responsibility to determine if a recreational activity or related facility interferes with
       the purpose for which the land was acquired or developed, or is managed (50 CFR §
       80.18). The Region concluded, based on their review of the facts, that the Commission
       had not engaged in a diversion of use, and that this finding should be removed from the
       final audit report.

       Office of Inspector General Comments

       As a result of the Commission and FWS comments we revised the recommendations.
       We continue to believe that in order to determine if 35 percent of the WMA should be
       used for recreational activities, the original purpose for which the land was acquired must
       be determined. In addition, we are unconvinced that these recreational activities do not
       have a negative impact on the wildlife habitat or other purpose(s) for which the land was
       acquired. Therefore, we believe FWS should reconsider its response to the finding and
       recommendations.

H. Retention of Accounting Records
The Commission’s Bureau of Accounting Services did not maintain adequate support for
expenditures claimed on Financial Status Reports (SF-269s) for its Federal Assistance programs.
The Commission’s accountants could not provide us with detailed grant expense data for one of
the eight fiscal year 2002 grants we selected for review, and could not retrieve any 2001 grant
expense records from the system. We were able to satisfy our audit requirements by relying on
the State’s Single Audit for fiscal year 2001 and using other methods for fiscal year 2002.

According to 50 CFR§ 80.19 (a), grantees must retain detailed grant accounting data for a
minimum of three years after each grant’s final expenditure report.

       Recommendations

       We recommend that FWS:

       1. Require the Commission to maintain easily retrievable transaction-detailed
          accounting records supporting all receipts and disbursements related to license fees
          and Federal Assistance grants for at least three years as required by 50 CFR§ 80.19
          (a).

       2. Require the Commission to develop a method to ensure that a detailed list of
          transactions, reconciled to the official accounting records, is prepared and retained in
          the Commission’s official accounting records for each Federal Assistance grant.




                                                 13
       Commission Response

       The Commission responded that, as required by 50 CFR § 80.19(a), it has and continues
       to maintain transaction-detailed accounting records supporting all receipts and
       disbursements related to license fees and Federal Assistance grants. The information
       requested by and provided to the auditors reflected expenditures made on the ten wildlife
       management areas that they visited. If required, documentation for all other expenditures
       can be retrieved and provided. In the future, a disc containing the detail transaction
       information, as well as the final cost sheet and SF-269, will be placed with each grant
       folder.

       FWS Response

       FWS agreed with the Commission’s actions.

       Office of Inspector General Comments

       FWS concurred with the finding and proposed corrective action. We consider the
       response sufficient to consider the finding resolved and the recommendations
       implemented. No further response to this finding is required.

I. Project Level Accounting
The Commission submitted proposals for Grants W-35-50 and W-35-51 that included budgets
for 89 projects. These proposals were accepted by FWS, made a part of the grant agreements by
reference, and as a result, the grant agreements required that costs be accumulated and reported
at the project level.

According to 43 CFR § 12.60, financial management systems must permit the tracing of funds to
a level of expenditures adequate to establish that such funds have not been used in violation of
the restrictions and prohibitions of applicable statutes.

The Commission was unable to provide us with project costs for each project approved under
Grants W-35-50 and W-35-51. We found that the Commission’s Grant Cost Sheet for Grant W-
35-51 (its accounting records) did not accumulate costs by project. Also, the Chief of the
Commission’s Wildlife Division prepared the annual performance report for Grant W-35-51 by
species, which did not reconcile to the line items in the Commission’s SF-269s. As a result, we
could not determine whether the costs claimed complied with the 43 CFR § 12.70(c)(ii)
requirement that no more than ten percent of total budgeted costs could be transferred between
projects without prior approval by FWS (the ten percent rule).




                                               14
       Recommendations

       We recommend that FWS:

       1. Require the Commission to accumulate and report cost data at the project level for
          Grant W-35-51 and compare the actual costs to the budgeted costs.

       2. In the future, either require the Commission to accumulate cost data at the project
          level, compare the actual costs to the budgeted costs for each project, and obtain prior
          approval from FWS for any changes in budgeted project costs expected to exceed ten
          percent of the total grant budget in accordance with 43 CFR § 12.70(c)(ii) or
          eliminate the requirement for project level accounting in future grant agreements.

       Commission Response

       Commission officials agreed with Recommendation 2 and stated that the Commission has
       modified its reporting system to accumulate and report cost data at the project level, with
       the ability to compare actual costs to budgeted costs. In the future, the Commission will
       obtain prior approval from FWS for changes expected to exceed ten percent of the total
       grant award.

        FWS Response

       FWS agreed with the Commission’s actions.

       Office of Inspector General Comments

       We revised Recommendation 1. Accordingly, FWS should address this recommendation.

       Since the Commission and FWS concurred with Recommendation 2 and proposed
       corrective action, the response is sufficient to consider the recommendation implemented.
       No further action is required.

J. Labor – Payroll Allocations
A finding reported in the last two single audits, and in a follow-up review conducted by the
Commission’s Inspector General’s office, indicated that the Commission needed to change its
method of allocating overtime and compensatory time (unpaid time off) to Federal grants. To
resolve that finding, the Commission stated that it would develop an allocation method. At the
time of our review, an allocation method had not yet been developed. OMB Circular A-87
Attachment B, Section 11.d (2), indicates that the costs of authorized absences, such as earned
overtime and accrued compensatory time, are allowable if they are equitably allocated to all
related activities including Federal awards.

We did not question any payroll charges because we found that few employees charging time to
Federal Assistance grant projects earn or take overtime or compensatory time. However, the


                                               15
allocation deficiency still existed and is a problem for time charges of the Commission’s law
enforcement officers. We did not quantify the effect this issue had on law enforcement charges
to the license fee fund. If the Commission does not change its method of allocating overtime and
compensatory time, it runs the risk of misallocating those charges to future Federal Assistance
grants and license fee funds.

       Recommendation

       We recommend that FWS require the Commission to modify its existing payroll system
       to equitably allocate overtime and compensatory time off to Federal Assistance grants
       and to the license fee fund.

       Commission Response

       Commission officials agreed with the finding and stated that the Commission has already
       completed modifications to its existing payroll system to allow for equitable allocations
       of overtime and compensatory time off to Federal Assistance grants and to the license fee
       fund.

       FWS Response

       FWS agreed with the Commission’s actions.

       Office of Inspector General Comments

       The Commission and FWS concur with the finding and recommendation. Accordingly,
       FWS should request a copy of the State Auditor’s current audit report to confirm that the
       appropriate corrective action has been taken. We consider the response sufficient to
       consider this finding resolved but we consider the recommendation not implemented.
       FWS should identify a target date and an official responsible for implementation of the
       recommendation.




                                               16
                                                         APPENDIX 1



FLORIDA FISH AND WILDLIFE CONSERVATION COMMISSION
      FINANCIAL SUMMARY OF REVIEW COVERAGE
                                    Questioned Costs
    Grant     Grant     Claimed                Federal
   Number    Amount       Costs     Total       Share     Notes
F-01-50       $86,505     $36,915
F-01-51       101,263      18,719
F-42-15       527,714     501,936
F-42-16       528,347     509,757
F-43-15     1,216,500   1,091,717
F-43-16     1,216,500   1,274,240
F-43-17     1,308,367     259,111
F-45-16     1,255,478   1,014,421
F-45-17     2,095,891     813,777
F-49-15       374,856     245,767
F-49-16       327,768     294,302
F-51-15       171,636     140,260
F-51-16       219,488     155,133
F-53-15       127,229     110,328
F-53-16       163,884      73,355
F-56-14       124,985     107,731
F-59-13       700,991     637,962
F-59-14       740,543     799,394
F-66-10       388,713     391,734
F-66-11       401,693     358,974
F-66-12       415,106     391,067
F-69-8        453,333     360,830
F-69-9        453,333     389,173
F-69-10       453,333     133,497
F-70-8        328,764     256,434
F-70-9        406,198     355,138
F-72-5        560,000     424,876
F-72-6        560,000     456,197
F-73-4        660,988     551,492
F-73-5        715,956     715,072
F-74-4        508,601     441,374
F-74-5        627,565     577,727
F-75-3        400,000     361,409
F-75-4        400,000     415,890
F-79-1        405,650     398,870


                             17
                                                                                  APPENDIX 1



                                                         Questioned Costs
       Grant           Grant           Claimed                      Federal
      Number          Amount             Costs           Total       Share         Notes
   F-95-1               44,667            13,624
   F-96-2              304,468           262,529
   F-96-3              303,612           287,260
   F-102-2             140,000           153,906
   F-102-3             140,000            96,718
   F-104-1             200,000           195,727
   P-2-4               150,000           100,000
   P-5-1               265,440           205,383
   R-3-1               114,280            56,723
   W-5-9             1,476,877           916,059
   W-5-10            1,569,230         1,412,134           $26,121      $19,591      1
   W-6-4             1,386,690         1,466,429
   W-6-5               220,000             5,853
   W-13-54               4,000             6,407
   W-13-55               4,000             5,875
   W-35-50           8,241,419         9,311,466
   W-35-51          13,437,408        12,053,153          869,390       652,042      2
       Total       $47,429,269       $41,613,825         $895,511      $671,633


Notes:

   1. We questioned $21,585 ($16,189 Federal share) of awards improperly charged to the
      grant and $4,536 ($3,402 Federal share) of expenditures that were incurred prior to the
      grant period (See Findings E. Awards to Volunteers and C. Out-of-Period Costs)

   2. We questioned costs of $504,582 ($378,436 Federal share) incurred for ineligible
      campground construction, $179,574 ($134,680 Federal share) in road repairs allocated to
      the wrong project, $152,445 ($114,334 Federal share) in out-of-period costs and $32,789
      ($24,592 Federal share) in costs claimed for an unpaid invoice (See Findings A.
      Campground Construction, B. Costs Charged to Wrong Project, C. Out-of-Period Costs
      and D. Ineligible Costs)




                                              18
                                                                   APPENDIX 2



FLORIDA FISH AND WILDLIFE CONSERVATION COMMISSION
              SCHEDULE OF SITES VISITED

                      Wildlife Management Areas

                                 Aucilla
                                Big Bend
                               Blackwater
                              J. W. Corbett
                            Fisheating Creek
                                Joe Budd
                              Three Lakes
                     Fred C. Babcock/Cecil M. Webb


                           Other Sites Visited

             Apalachicola River Wildlife Environmental Area
         Region 5 Northeast Hunter Education and Training Center
                          And Shooting Range
                         Region 4 – South Office
                    Florida Marine Research Institute
      Fred C. Babcock/Cecil M. Webb Boat Ramp and Shooting Range
                        J.W. Corbett Youth Camp
                   Joe Budd Aquatic Education Center
                     Tenoroc Fish Management Area
           Archery and Shooting Ranges and seven Boat Ramps)
                   Russell Harbor Landing Boat Ramp




                                  19
                                                                                  APPENDIX 3



                         STATUS OF AUDIT FINDINGS
                          AND RECOMMENDATIONS

Recommendation              Status                               Action Required

A, C, D, E, and J         Finding resolved but      Provide a target date and official responsible
                          recommendation not        for implementation of each recommendation.
                          implemented

B, F-1, F-2, G-1, G-2,    Finding unresolved        Provide responses to the revised findings and
and I-1                                             recommendations that state concurrence or
                                                    non-concurrence with each finding and
                                                    recommendation. For each concurrence,
                                                    provide a corrective action plan that includes
                                                    the target date and the official responsible for
                                                    implementation of the recommendation.
                                                    Unresolved findings and/or unimplemented
                                                    recommendations remaining at the end of 90
                                                    days (after May 26, 2004) will be referred to
                                                    the Assistant Secretary of PMB for resolution
                                                    and/or tracking of implementation.

H-1, H-2, and I-2,        Finding resolved and      No further action is required.
                          Recommendation
                          Implemented




                                               20
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone - Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240

              Phone:         24-Hour Toll Free                800-424-5081
                             Washington Metro Area            202-208-5300
                             Hearing Impaired (TTY)           202-208-2420
                             Fax                              202-208-6081

              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
